NO.

|v m3
IN The

Supreme Court of the United States

KRISTIN D. WILKINSON,
Petitioner
vs.
COMMISSION FOR LAWYER DISCIPLINE
Respondent

On Petition for Writ of Certiorari
To The Supreme Court of Texas
PETITION FOR WRIT OF CERTIORARI
Kristin Wilkinson, J.D., Pro Se*
P.O.Box 701188
Houston, Texas 77270-1188
(713) 561-5616 (telephone)
kristinwilkinson@use.startmail.com
*Not Currently Practicing

QUESTION PRESENTED
Does the standard for assessing the protection of Due
Process Clause rights of lawyers in disciplinary
proceedings announced in In re Ruffalo, fail to protect
the Fifth and Fourteenth Amendment right to due process
when the attorney is not given a meaningful opportunity
to present evidence in her defense, such as when states
have statutes protecting the confidentiality of lawyers'
clients when those clients are not the complainant, and
where a lawyer, a professionally trained individual who
has invested substantial financial resources in their
professional careers are at risk of losing substantial
property rights and their reputations, is the subject of a
disciplinary action filed by a third-party non-client and
the evidence necessary to defend themselves is protected
by statutory confidentiality requirements and not waived,
and disciplinary boards and courts can deny relief from
those statutes and subject the lawyer to trial knowing the
evidence is confidential and unavailable - and still use
broad form jury questions without proper instructions to produce an outcome of disbarment?

ii

PARTIES TO THE PROCEEDINGS BELOW
Kristin Wilkinson, petitioner, was the petitioner
below.
The Commission for Lawyer Discipline of the
Supreme Court of Texas was the respondent below.

m

TABLE OF CONTENTS
QUESTIONS PRESENTED

ii

PARTIES TO THE PROCEEDING BELOW

ill

TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES

vi

INDEX OF APPENDICES

Vlll

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED............................................................

1

INTRODUCTION

2

STATEMENT OF THE CASE

6

1.

Factual Background

6

2.

Summary Judgment Proceedings

8

REASONS FOR GRANTING THE PETITION
iv

12

I.
The prevailing Ruffalo standard is not clear
enough to protect an attorney's fundamental right to
due process owed them by the fifth and fourteenth
amendments to the United States Constitution.......

12

II.
This case is naturally disposed toward
revisiting Ruffalo to ensure that in cases involving
the regulation of the practice of law, the Constitution
is not treated as irrelevant in the very profession
15
bound to uphold it.................................................
18

CONCLUSION

v

TABLE OF AUTHORITIES
CASES
Bowman Transportation, Inc. v.
Arkansas-Best Freight System, Inc.,
419 U.S. 281,288, n. 4, 95 S.Ct. 438, 443 n.4,
42 L.Ed.2d 447 (1974).......... ........................

13

Cole v. State ofArkansas,
333 U.S. 196,201-202, 68 S.Ct. 514, 92 L.Ed. 644 (1948) ..14
In re Gault,
387 U.S. 1,33-34, 87 S.Ct. 1428,1446-1447,
18 L.Ed.2d 527 (1967) .....'.........................
In re Ruffalo,
390 U.S. 544, 551-52,
88 S. Ct. 1222,20 L.Ed.2d 117 (1968)

13

2,3,13,
14,18

In re Guardianship of Hollis,
14-13-00659-CV at 6-9 (Tex. App.- Houston
[14th Dist.] Nov. 4,2014, no pet., mem.).....

18

Kappus v. Kappus,
284 S.W.3d 83,835-39 (Tex. 2009)

18

Romero v. KPH Consol., Inc., 166 S.W.3d 212,
222 and note 33 (Tex. 2015) ............................

17

Zauderer v. Office ofDisciplinary Counsel of the
Supreme Court of Ohio, 471 U.S. 626,671-672,
13,15,18,19
105 S.Ct. 2265, 85 L.Ed.2d 652 (1985)

vi

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V

passim

U.S. Const, amend XIV

passim

STATUTES
1

28 U.S.C. § 1257
TEX. GOV'T CODE § 81.071

2,10
3,17

Tex. Gov't Code § 81.072(h)
Tex. Gov't Code § 81.101

2

Texas Rules of Disciplinary Procedure, Rule 2.23..

2

Texas Disciplinary Rules of Professional
Conduct, Rule 8.04(a)(7) ........................

2

vii

INDEX OF APPENDICES
App01-066

APPENDKA
Opinion of the Texas Court of Appeals
for the Ninth District, Wilkinson v.
Comm'n for Lawyer Discipline,
No. 09-17-00444-CV (Tex. App.
July 25,2019) (mem.).
APPENDIX B

App067-093

State District Court's Judgment of
Disbarment, Signed August 14,2017.
APPENDIX C

App094-095

Decision of the Supreme Court of Texas,
Denying Review, October 25,2019.
App096-103

APPENDIX D

Texas Government Code Section 81.071 App099
Texas Government Code Section 81.101 ApplOO
T.R.D.P., Rule 2.23

ApplOl

T.D.R.P.C., Rule 8.04(a)7)

App103

viii

1
PETITION FOR WRIT OF CERTIORARI
Kristin Wilkinson respectfully petitions for a writ
of certiorari to review the judgment of the Supreme
Court of Texas (SCT).
OPINIONS BELOW
The Supreme Court of Texas, on October 25,
2019, denied, without addressing the constitutional
issues presented and without opinion, the Petition for
Review of the decision of the Texas Court of Appeals for
the Ninth District. Its notice appears at Appendix C.
The memorandum opinion of the Texas Court of
Appeals for the Ninth District, Wilkinson v. Comm'n
for Lawyer Discipline, No. 09-17-00444-CV (Tex. App.
July 25,2019), affirmed the trial court's judgment
without review of the issue presented regarding the trial
court's violation of a pertinent Texas statute that
protects client confidentiality, is in Appendix A.
The Judgment of Disbarment appears at
Appendix B to the petition.
JURISDICTION
The Supreme Court of Texas denied on October
25,2019, the Petition for Review of the decision of the
Ninth District Court of Appeals. This Court has
jurisdiction under 28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
The U.S. Constitution's Fourteenth Amendment
provides, in relevant part: ".... No State shall make or
enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any

2

State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws."
The U.S. Constitution's Fifth Amendment
provides, in relevant part:
nor shall [any person]
be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or
property, without due process of law;....
The Texas Government Code, Section 81.072(h)
provides: "(h) The state bar or a court may not require
an attorney against whom a disciplinary action has been
brought to disclose information protected by the
attorney-client privilege if the client did not initiate the
grievance that is the subject of the action."
Other relevant state statutes that govern the
practice of law in Texas are reproduced in Appendix D
due to their length and include; Texas Government
Code Sections 81.071 and 81.101; Texas Rules of
Disciplinary Procedure, Rule 2.23; and Texas
Disciplinary Rules of Professional Conduct, Rule
8.04(a)7).
INTRODUCTION
This petition asks to the Court to consider whether
Texas attorneys receive the federally protected procedural
due process this Court assured they were entitled in its
holding in In re Ruffalo, 390 U.S. 544, 551-52, 88 S. Ct.
1222,20 L.Ed.2d 117 (1968), in administrative regulatory
discipline proceedings. The right of attorneys to due
process is no small or insignificant matter. Their property
rights and investment in their professional lives is
substantial and meaningful. This petition demonstrates

3

that the Buffalo standard is disregarded so badly in
Texas, or that it is so in need of clarification, that sole
practitioner's have virtually no ability to defend
themselves against procedural abuses by the Commission
for Lawyer Discipline, (CFLD), of Due Process Clause
protection lawyers are entitled. The CFLD is a state
agency that uses its authority to adjudicate contractual fee
disputes as disciplinary matters when it otherwise would
have no jurisdiction. It causes involuntary servitude and
allows favored competitors to use disciplinary complaints
forthepurposeofpurloiningbusinessand simultaneously
destroying valuable property rights, reputation and
destruction of business.
Kristin Wilkinson graduated cum laude with a BBA
in Economics from The University of St. Thomas. She
attended law school as a second career and was stalked by
a law professor throughout her matriculation. When she
requested help from the law school she was ridiculed,
ostracized, called a lesbian, threatened by the school's
vice-dean that she would never practice law if she
reported the behavior to law enforcement; her grades were
manipulated, and other students who came to her aid
received like treatment, especially to their grades.
Kristin's bar grades were manipulated and when she
sought a correction, she was ridiculed because she was
represented by Richard "Racehorse" Haynes, her employer
and supervising attorney at the time. Richard had won a
highly publicized case against the attorney handling the
Board of Law Examiner matter Kristin brought and it
clearly impacted the Board's attorney's impartiality.
Instead of correcting a grading error, Kristin was told she
had to retake the Bar exam because similar errors had
likely been made impacting other students - although

4
Kristin had been invited to a function held solely for new
attorneys who had taken and passed the Bar exam in
Dallas, Texas. The invitation fortunately had been
arranged through a process where bar exam grades were
provided upon request prior to publication to students.
Fortunately, because the invitation evidenced that the bar
exam grades are shared prior to informing students - a
fact that would have gone unnoticed without the invitation,
(and per Richard Haynes -- the grades are sent to law
schools prior to publication to students as well and
sometimes changed prior to publication to students). Any
lawyer knows the financial devastation caused by delaying
income in order to retake the bar exam.
After Kristin became licensed, Richard referred
Kristin her first case: a seven-year old child who had been
molested by a prominent Houston attorney. After years of
litigation, through Kristin's sole representation, she
obtained a jury verdict in the amount of $8,910,000.00 for
the child. Kristin's dedication to her practice was always
in line with her dedication to all of her work, in
conscientious concern for others. After obtaining the
judgment, at every turn Kristin was refused satisfaction of
the judgment by local state district courts who protected
ad nauseam the now deceased defendant's assets in
complete disregard of rights provided in turnover orders
Kristin obtained. Kristin represented the child throughout
the litigation, in two attempts at bankruptcy filed by the
defendant, in trial, in appeal, in post-judgment collection
and turnover proceedings, and assisted the federal court
attorneys by allowing them free use of her briefs in their
federal child pornography case against the same
defendant. Kristin went into debt in order to see that this
child did not lose representation in spite of the prolonged

5
litigation that began in 2002 and still has not seen
satisfaction of the judgment nor has Kristin been paid. It
is truly nauseating to experience the kind of behavior
grown adult lawyers and judges have perpetuated in the
continued denial of Kristin's child-client's compensation
the jury gave her for her injuries and Kristin the
compensation she earned for her work. Instead, Kristin
has become the target of incessant disciplinary actions,
financial ruin, and constant humiliation from opposing
attorneys who obtain information from the CFLD and
insert that information into their own, completely
unrelated pleadings and scream them out at hearings in
order to harass, embarrass, stimulate bias, public disdain
and ridicule against her, and create a lack of objectivity
amongthe judiciary, juries, and the public, interfering with
her work and ability to support herself, her law practice,
and her family. When third party attorneys began to claim
in court that they represented Kristin’s client under
Kristin's contract, which they absolutely did not, the CFLD
found no wrongdoing after Kristin filed a complaint. The
unprofessional behavior perpetuated by the CFLD, whose
agents have stated in no uncertain terms to Kristin
directly, that it has as its mission to find against her
regardless of the evidence, is the root cause of the need to
establish stronger rights of lawyers to Due Process in
regulatory proceedings and protect their clients from the
In this case, the trial
damage caused by the CFLD.
court stated on the record that it did not agree with the
jury's decision. The CFLD confessed that it did not have
jurisdiction over the matters that had been tried to the
jury and requested no restitution, only its legal fees
incurred. But relief was denied by Texas's highest court in
a decision were no oral argument was allowed on appeal
at the Ninth Court of Appeals as well as in the Texas

6
Supreme Court and no appellate court opinion even
addressed the federal constitutional issues.
There is clearly no authority to whom Texas
attorneys can turn for justice in attorney regulatory
matters if the Court does not take action to clarify and
enforce constitutional standards in Texas attorney
discipline matters. No one knows this as much as Kristin:
a right to be heard that consists of no more than a right to
file an appeal is completely meaningless.
STATEMENT OF THE CASE
1.

Factual Background

Kristin Wilkinson drafted legal
instruments while working as a paralegal for attorney
Larry Longer while she was not admitted to practice
law. (RR 14: Resp. Exs. 18-23,26-28, 31). She then
became the trustee for Joy Guinn, who was a defendant
in civil and criminal animal cruelty matters in 2014. (RR
14:Resp. Ex. 10). Ms Guinn had mental and medical
issues requiring 4-12 hours of care every day. (RR
14:Resp. Exs. 12, 48); (RR 14:Resp. Exs. 1, 46).
While Ms. Guinn was in a mental hospital at The
Menninger Clinic, her former attorney Kyle Frazier, who
had performed legal work for her in 1997, began
interfering in the affairs of the trust and obtained a
revocation of Wilkinson’s power of attorney from Ms.
Guinn. (RR 14: Resp. Exs. 44,45). He threatened to file
a grievance against Wilkinson if she did not yield to his
demand that she turn over Ms. Guinn’s money to him in
his personal capacity. (RR 11: Pet. Ex. 1). (RR 6:25, line
9 - RR 6:27, line 6). Wilkinson sought legal advise which

7

she followed by filing a request with the Probate Court
in Harris County to determine Ms. Guinn’s competency
and requested appointment of temporary attorney and
guardian ad litems. (RR11: Pet. Ex. 2). Ms. Guinn met
with Wilkinson and advised her not to comply with
Frazier's demand and a response to Frazier’s threat
letter was made, signed by both Wilkinson and Guinn,
and sent to Frazier. (RR ll:Pet. Ex. 3). The guardian
ad litem at an hearing offered a partial copy of the trust
agreement, leaving out crucial pages 29-32 that stated
Wilkinson had no duty to post a bond, in order to
persuade the court to remove Wilkinson if she chose not
to post a bond. (RR 11: 5,10,13). The court appointed
Mark E. Kunik, MD, MPH who performed the medical
exam of Ms. Guinn, a former veterinarian, and found her
to be competent but with a mild neurocognitive disorder,
hoarding disorder, autism spectrum disorder, and
requiring 4-12 hours of care every day. (RR 14:Resp.
Ex. 12). At Frazier’s request, the Commission filed suit
on September 2,2016, alleging Wilkinson practiced law
when she worked on preparing the trust as a paralegal
for Larry Longer, alleging improprieties in her
accounting, of which no evidence was presented at trial
and regarding which the CFLD presented no witness at
trial. (CLR 1:11). Significant to this case and the Due
Process violation, the client, Joy Guinn neither filed the
grievance nor joined the grievance, therefore, any
privileged information could not be disclosed by Kristin
in the CFLD matter. The trial court entered a summary
judgment for the CFLD on its claim that Kristin
practiced law while she was a paralegal under the
supervision of attorney Larry Longer. The CFLD’s
jurisdiction is confined to attorneys admitted to practice
in Texas as set out in the Texas Government Code

8
Section 81.071 and it has no authority to take action
under the Texas Rules against anyone not licensed to
practice law.
The only matter not resolved by the summary
judgment that were tried to a jury involved the
management of the trust, also during a time Kristin was
not admitted to practice law.
2.

Summary Judgment Proceedings

Kristin was plagued by concerns over the need to
divulge confidential information in order to defend
herself against the allegations made by the CFLD. The
district court refused to consider supplemented
evidence to her motion for summary judgment and to
her response to the CFLD’s motion for partial summary
judgment prior to its ruling and denied relief she
requested in her motion to reconsider. (CLR 1:150-191),
(CLR 1:280-403), (CLR 1:192-275) (CLR 1:404-421), (CLR
1:424-428), (CLR 1:433-524), (CLR 1:525), (CLR 1:529538), (CLR 1:539-542), (CLR 1:545-546), (CLR 1:547),
(CLR 2:574-1013), (CLR 1:550-561), (CLR 2:1017-1022),
(CLR 2:1028), (CLR 2:1029).
On April 11,2017, Kristin filed “Respondent’s
First Supplement to Respondent’s Original Answer and
Request for Disclosure” wherein she moved the district
court for leave to consider the arguments and
supplemental evidence attached. The Court denied the
motion for leave on April 28,2017. (CLR 1:433-523),
(CLR 1:529-538), (CLR 1:539-542), (CLR 1:545-546) (CLR
1:547).
On April 28,2017, the district court signed the
“Order Granting Petitioner’s Motion For Partial

9
Summary Judgment And Order Denying Respondent’s
Motion For Summary Judgment.” (CLR 1:550-561). In
its Order the district court shifted the burden to Kristin
in finding for the CFLD by finding Kristin did not deny
practicing law, it disregarded her evidence that she was
working as a paralegal and long-established recognition
that legal assistants are persons who perform
“substantive legal work under the direction and
supervision of an attorney.” All Seasons Window and
Door v. Red Dot Corp., 181 S.W.3d 490,504 (Tex. AppTexarkana 2005, no pet.). (CLR 1:552-557). (CLR 1:150151). (CLR 1:404-421). The district court also
erroneously found that Kristin’s motion did not rebut
the Commission’s response. (CLR 1:558). The district
court required Kristin to guess what claims the CFLD
brought against her instead of requiring the CFLD to
bring forth admissible evidence supporting its claims, all
of which were stated in Kristin’s motion. (CLR 1:558560). The district court also reviewed the CFLD's no­
evidence motion as a traditional one. (CLR 1:560-561).
The district court said that Kristin “failed to properly
account for or justify” trust expenses or purported
“loss” relying on the CFLD’s pleadings as proof; there
was no evidence of a breach of the trust agreement.
(CLR 1:558-559).
On April 20,2017, Kristin had requested the
district court order the Commission to obtain a waiver
of the confidentiality privilege from Joy Guinn, the
settlor/beneficiary and the client for whom the work was
performed as part of Kristin’s employment by attorney
Larry Longer so that she could disclose material
information in the accounting. (CLR 1:529-539). The
district court denied Kristin’s motion. (CLR 1:547). The

10
only evidence Kristin could obtain without revealing
privileged information was that during the relevant
timeframe, Kristin communicated with Larry Longer’s
expert witness in the underlying legal representation,
Carmen Petzold, Ph.D., that she was not practicing law
during the relevant period of July 2014 - April 2015.
(CLR 1:529-538). The district court erroneously denied
Kristin’s motions regarding her request for a waiver and
to supplement her evidence without a waiver.
(CLRl:545-547).
The Commission’s jurisdiction is confined to
attorneys admitted to practice in Texas, as set out in the
Texas Government Code Section 81.071. TheCFLDhas
no authority to take action under the Texas Rules
against anyone not licensed to practice law - at least
insofaras the statute says. Kristin was under a
disciplinary suspension that began July 26, 2013, and
expired on July 25, 2015, during which time she did not
have her license, she was not admitted to practice, paid
no Bar dues and received no benefits of Bar
membership.
The CFLD's position, that the district and
appellate courts agreed with, is that performing
substantial legal work is always practicing law. To the
contrary, paralegals and legal assistants have been
recognized for a long time as persons who perform
substantive legal work under the direction and
supervision of an attorney. The CFLD pointed to no
statute that would provide notice to suspended
attorneys that they are not allowed to work as a
paralegal. In fact, many of them do so and the CFLD
does not allege that they are practicing law, as they did
with Kristin. Kristin actually worked for another lawyer

11
who also hired former lawyers during their suspension
to work for him and the CFLD was aware of that
employment where Kristin performed important
briefings for the lawyer and the CFLD did not claim that
her work was the practice of law.
Here, the State Bar alleged Kristin violated the
suspension by working as a paralegal, hut its
jurisdiction to enforce, modify or revoke the suspension
expired before it brought suit against her. Likewise, the
CFLD has no jurisdiction to bring an action for
discipline on behalf of a third-party antagonist who
lacks standing. This is directly applicable to the entire
case that was tried to the jury because the partial
summary judgment was granted on the issue of whether
Kristin was practicing law. The trial encompassed
issues of whether Kristin breached her duty owed only
to Joy Guinn, the settlor and beneficiary who did not join
the grievance. Lastly, if there were meritorious claims
by Kyle Frazier related to the trust administration they
should have been brought in Probate Court where
Kristin instituted a competency/guardianship case, but
they were not.
Kristin had no duty to post a bond as was alleged
and had no duty to account to Kyle Frazier as alleged,
therefore, the CFLD’s case lacked merit as well as
jurisdiction. Over objection, extremely broad form
questions were submitted to a jury that had no basis in
law or evidence; the questions and instructions had
invalid elements and those invalid elements prevented
the appellate court from determining whether the jury
based its findings on those invalid elements.
Because Ms. Guinn did not join the grievance, her

12
confidentiality was still privileged and required
protection. In protecting Ms. Guinn’s privilege, much of
the evidence could not be disclosed. Juries may not
make inferences from evidence that is unavailable or not
offered because of a claim of privilege. Yet the CFLD's
entire case involved Ms. Guinn's confidential matters.
The CFLD had the burden of proof. It did not call
Kristin, Ms. Guinn, or any person with direct knowledge
of Kristin's work for the attorney or Kristin's trust
administration and was erroneously allowed to use
records it obtained by secret subpoenas to third parties
without properly notifying Kristin under procedural
rules and over Kristin's objections was allowed to admit
them into evidence, without live testimony of the
custodians.
No breach of the trust agreement was proved and
not even a true and correct copy of the actual trust
agreement was admitted into evidence.
The evidence was legally and factually
insufficient and the CFLD had the opportunity to correct
its submitted charge after Kristin objected and filed
proposed jury questions and instructions, but did not.
REASONS FOR GRANTING THE PETITION
I.
THE PREVAILING R UFFALO STANDARD IS
NOT CLEAR ENOUGH TO PROTECT AN
ATTORNEY'S FUNDAMENTAL RIGHT TO DUE
PROCESS OWED THEM BY THE FIFTH AND
FOURTEENTH AMENDMENTS TO THE UNITED
STATES CONSTITUTION.
In 1968 this Court created a standard in attorney
disbarment proceedings that requires that "notice

13
should be given to the attorney of the charges made and
opportunity afforded him for explanation and defense."
In re Ruffalo, 390 U.S. 544, 550, 88 S. Gt. 1222,20
L.Ed.2d 117 (1968). This Court found there that the
attorney had no notice of the allegations against him.
Id. at 550-551. This case presents an opportunity for the
Court to clarify and strengthen the understanding and
enforcement of fundamental Due Process Clause rights
owed to all citizens, including lawyers in proceedings
against them aimed at taking their law license and other
valuable property rights as well as damage to their
reputation when clients or non-clients file grievance
actions against them. The Court should also clarify
what constitutes an enforceable disciplinary judgment
when there are no factual findings recited in the
judgment. This Court should make positive changes in
the law in order to protect lawyers from abuses of their
due process rights and enforce its judgment
retroactively to include the underlying case.
This Court held that "[ujnder the Due Process
Clause, 'reasonable notice' must include disclosure of
'the specific issues [the party] must meet," and
"appraisal of 'the factual material on which the agency
relies for decision so that he may rebut it'." In re Gault,
387 U.S. 1, 33-34, 87 S.Ct. 1428,1446-1447,18 L.Ed.2d
527 (1967); Bowman Transportation, Inc. v.
Arkansas-Best Freight System, Inc., 419 U.S. 281,288,
n. 4, 95 S.Ct. 438, 443 n.4, 42 L.Ed.2d 447 (1974). In
Zauderer v. Office ofDisciplinary Counsel of the
Supreme Court of Ohio, 471 U.S. 626, 671-672,105 S.Ct.
2265, 85 L.Ed.2d 652 (1985), this Court held that
"[w]here there is an 'absence of fair notice as to the
reach of the grievance procedure and the precise nature

14
of the charges,' so that the attorney is not given a
meaningful opportunity to present evidence in his
defense, the proceedings violate due process. Id., at
671-72, citing In reRuffalo, 390 U.S. 544,552,88 S. Ct.
1222, 20 L.Ed.2d 117 (1968).
In Cole v. State ofArkansas, 333 U.S. 196,201202, 68 S.Ct. 514, 92 L.Ed. 644 (1948), this Court held
that issues raised regarding the validity of a state
statute under the Fourteenth Amendment and brought
to the attention of the Arkansas Supreme Court yet not
addressed by that court, specifically a state statute that
in practice was too vage and indefinite to conform to due
process, was a violation of the Fourteenth Amendment
and the equal protection of the laws. Id. at 202. There,
the Court held that the vagueness of the state statute in
practice created an allusion only that a trial had been
conducted based upon the statutes involved while the
actual trial had ignored the relevant statute entirely. Id.
at 202-203.
The Court has held, in Justice Brennan's
concurring (in part) opinion, the following
"These guarantees apply fully to
attorney disciplinary proceedings. In re
Ruffalo, 390 U.S. 544, 550, 88 S. Ct. 1222,
1225, 20 L.Ed.2d 117 (1968). Given the
traditions of the legal profession and an
attorney's specialized professional
training, there is unquestionably some
room for enforcement of standards that
might be impermissibly vague in other
contexts; an attorney in many instances
may properly be punished for 'conduct

15
whch all responsible attorneys would
recognize as improper for a member of the
profession.' Id., at 55, 88 S.Ct., at 1228
(WHITE, J., concurring in result). But
where '[t]he appraisal of [an attorney's]
conduct is one about which reasonable
men differ, not one immediately apparent
to any scrupulous citizen who confronts
the question,' and where the State has not
otherwise proscribed the conduct in
reasonably clear terms, the Due Process
Clause forbids punishment of the attorney
for that conduct, id., at 555-556,88 S.Ct.,
at 1228-1229."
Zauderer v. Office ofDisciplinary Counsel of the
Supreme Court of Ohio, 471 U.S. 626,666,105 S.Ct.
2265, 85 L.Ed.2d 652 (1985) (BRENNAN, J, concurring
in part). A mere opportunity to bring an appeal does
not constitute the "meaningful 'chance to be heard'
guaranteed by the Due Process Clause" in attorney
disciplinary matters, for it is a mere mockery of the due
process of law guaranteed every citizen accused of
wrongdoing. Zauderer v. Office ofDisciplinary
Counsel of the Supreme Court of Ohio, 471 U.S. 626,
673-674,105 S.Ct. 2265, 85 L.Ed.2d 652 (1985). Vague
statutes do not meet the fair notice standards required
because they allow for harsh and discriminatory
enforcement against particular persons "deemed to
merit [official] displeasure." Id. at 667 n. 10.
n.

THIS CASE IS NATURALLY DISPOSED
TOWARD REVISITING R UFFALO TO
ENSURE IN CASES INVOLVING THE
REGULATION OF THE PRACTICE OF LAW,

16
THE CONSTITUTION IS NOT TREATED AS
IRRELEVANT IN THE VERY PROFESSION
BOUND TO UPHOLD IT.
The statute at issue here, prohibiting the state
bar or a court from requiring an attorney against whom
a disciplinary action has been brought to disclose
information protected by the attorney-client privilege if
the client did not initiate the grievance that is the
subject of the action, must narrow the scope of those
proceedings. When a client does not involve herself in a
grievance proceeding, and where she is not even called
to testify - as in this case -- the presupposition is that
the scope of the proceeding will not require proof that is
protected by the attorney-client privilege. The statute
provides no guidance at all in such instances and does
not limit the conduct of the State Bar or a court in those
circumstances. This is the very nature of prohibition
against statutory vagueness the First, Fifth and
Fourteenth Amendments prevent. Kristin brought this
concern to the district court's attention and argued that
if she fully responded to requests of the State Bar and/or
argued in her own behalf using confidential client
material, she would be required to violate the Texas
Statute that protected her client from disclosure of her
confidential information. Texas law prohibits this:
"(h) The state bar or a court may not
require an attorney against whom a
disciplinary action has been brought to
disclose information protected by the
attorney-client privilege if the client did
not initiate the grievance that is the
subject of the action."

17
Tex. gov’t code § 81.072(h). The district court refused
to order the State Bar to obtain a waiver of the
privileged information or to protect Kristin's Due
Process Clause rights in any way. Instead, the district
court pressed her to trial knowing that she would have
to violate the Texas Government Code Section 81.072(h)
in order to adequately defend herself because her
evidence remained confidential and unavailable. In
doing this, the trial court then allowed the jury to make
inferences from evidence unavailable because it is
privileged. In Texas, the factfinder is not allowed to
make inferences from evidence unavailable or not
offered because of a claim of privilege; without proof of
the purpose for which Wilkinson did or did not act, the
Commission could not prove scienter or the elements of
its claims. Romero v. KPH Consol., Inc., 166 S.W.3d
212, 222 and note 33 (Tex. 2015). This is significant to
the entire case, not just the trial, because it involved the
evidence needed at the summary judgment phase of the
litigation as well as the trial. The absence of evidence is
not legally sufficient to support a finding of scienter. Id.
at 224-25. The CFLD had the burden of proving the
expenditures made by Wilkinson as the trustee because
its claim alleged "Respondent has failed to properly
account for or justify these expenditures and/or loss of
assets.” (CLR 1:13). The Commission did not prove
expenditures made in administering the trust were in
bad faith, contrary to the terms of the trust, much less
the reasonableness of the expenditures When no
probative evidence other than expenditures was offered
by the Commission, no reasonable jury could infer the
expenditures alone constitute serious and willful
wrongdoing or support a finding of gross
mismanagement, dishonesty, fraud, deceit,

18
misrepresentation, lack of honesty or trustworthiness or
fitness as a lawyer or a crime. Kappus v. Kappus, 284
S.W.3d 83,835-39 (Tex. 2009); In re Guardianship of
Hollis, 14-13-00659-CV at 6-9 (Tex. App.- Houston [14th
Dist.] Nov. 4,2014, no pet., mem).
The position of being forced to either divulge a
client's privileged information and breach a fiduciary
duty or lose a lawsuit where an attorney has been
alleged to violate the disciplinary rules in a grievance
case is untenable. The confidentiality statute at issue
prohibits the State Bar or a court from requiring the
disclosure of confidential information but at the same
time allows a court to find against an attorney when the
attorney cannot defend herself unless she divulges that
information. The disclosure of a client's confidential
information is either right or it is wrong under these
circumstances. It is not both. In holding otherwise, the
trial court violated Kristin's Due Process Clause
protection. The Ninth Court of Appeals did not address
the issue in its opinion and the Supreme Court of Texas
affirmed without opinion. This has been held to be the
very sort of procedure that makes a mockery of the
Constitution because it does not provide "a meaningful
'chance to be heard in a trial of the issues.'" Zauderer
v. Office of Disciplinary Counsel of the Supreme
Court of Ohio, 471 U.S. 626, 673,105 S.Ct. 2265,85
L.Ed.2d 652 (1985).
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted. Alternatively, this Court
should summarily vacate the judgment below and remand
for an analysis of Ruffalo in light of this case and the

19
opinions in Zauderer v. Office ofDisciplinary Counsel
of the Supreme Court of Ohio, 471 U.S. 626,673,105 S.Ct.
2265,85 L.Ed.2d 652 (1985).
Respectfully submitted,
By: /s/Kristin Wilkinson
Kristin Wilkinson
SBN 24037708*
P.O. Box 701188
Houston, Texas 77270-1188
(713) 561-5616
PRO SE FOR PETITIONER
* Not Currently Practicing

